Report No. D-2011-056                   April 14, 2011




      Consistent Use of Supply Support Activities Could
        Increase Efficiency of Equipment Drawdown
                          from Iraq
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Office of Inspector General at http://www.dodig.mil/audit/reports or contact the
Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703)
604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
AAA                           Army Audit Agency
AR                            Army Regulation
CRSP                          Central Receiving and Shipping Points
JBB                           Joint Base Balad
MCT                           Movement Control Team
MRO                           Materiel Release Orders
NSN                           National Stock Number
RFID                          Radio Frequency Identification
SARSS                         Standard Army Retail Supply System
SSA                           Supply Support Activity
TMR                           Transportation Movement Request
TRC                           Theater Redistribution Center
USARCENT                      U.S. Army Central
USF-I                         U.S. Forces-Iraq
                                 INSPECTOR GENERAL
                                 DEPARTMENT OF DEFENSE
                                   400 ARMY NAVY DRIVE
                              ARLINGTON, VIRGINIA 22202-4704


                                                                            April 14, 2011

MEMORANDUM FOR COMMANDER, U.S. CENTRAL COMMAND
               COMJvfANDER, U.S. FORCES-IRAQ
               COMJvfANDER, U.S. ARMY CENTRAL

SUBJECT: Consistent Use of Supply Support Activities Could Increase Efficiency of
         Equipment Drawdown from Iraq (Report No. D-2011-056)

We are providing this report for your information and use. We conducted this audit in
response to a U.S. Central Conunand request to focus oversight on asset accountability.
As of December 2010, DoD estimated that the drawdown from Iraq would include the
withdrawal of approximately 1.2 million pieces of equipment. Although the Supply
Support Activities and Central Receiving and Shipping Points were effectively
processing equipment in suppon of the Iraq drawdown, DoD activities bypassed the
Supply Support Activities and shipped equipment directly to the Theater Redistribution
Center at Camp Arifjan, Kuwait. This resulted in decreased efficiency, increased risk of
personnel injW)', and work stoppage at the Theater Redistribution Center at Camp
Arifjan, Kuwait.

The Deputy, USF-I Joint Logistics Directorate and the Commander, U.S. Army Central
conunents were responsive, therefore, we do not require additional comments. We
considered management comments when preparing the final report and revised
recommendation 1 slightly in response to those comments.

We appreciate the courtesies extended to the staff. Please direct questions to
Ms. Jacqueline Daniels at DSN 318-485-7371.




                                             Daniel R. Blair
                                             Deputy Inspector General
                                              for Auditing
   Report No. D-2011-056 (Project No. D2010-D000JB-0219.000)                    April 14, 2011


           Results in Brief: Consistent Use of Supply
           Support Activities Could Increase Efficiency
           of Equipment Drawdown from Iraq
What We Did                                           ship equipment directly to the TRC. As a
                                                      result, DoD activities delayed redistribution
We evaluated the disposition process for
                                                      and reduced content visibility when they
equipment leaving Iraq and whether that
                                                      bypassed Supply Support Activities. Lack of
process ensured timely accountability,
                                                      content visibility increased the risk of injury
visibility, and redistribution of the equipment
                                                      from inappropriately packed weapons and
to meet DoD needs. We also determined
                                                      hazardous material. For example, TRC
whether adequate security procedures were in
                                                      officials provided documentation identifying
place to ensure the intended destinations
                                                      that during a period of about 60 days, DoD
received the equipment. We conducted site
                                                      incurred work stoppage at the TRC of about
visits at two Supply Support Activities and
                                                      2,670 hours at a cost of $85,000.
two Central Receiving and Shipping Points in
Iraq.
                                                      As of December 2010, U.S. Army Central
                                                      had not taken corrective action in response to
We also followed up on an Army Audit
                                                      the Army Audit Agency recommendation.
Agency report recommendation that U.S.
                                                      Therefore, we issued a recommendation to
Army Central develop metrics to track
                                                      U.S. Army Central.
compliance with Radio Frequency
Identification requirements for shipping
containers leaving the U.S. Army Central              What We Recommend
area of responsibility.                               We recommend the Commander,
                                                      U.S. Forces-Iraq, develop procedures to
What We Found                                         prevent unauthorized DoD activities from
                                                      bypassing the Supply Support Activities.
Although the two Supply Support Activities
and Central Receiving Shipping Points we
                                                      We recommend the Commander, U.S. Army
visited were effectively managing the
                                                      Central, develop procedures requiring that all
disposition process to ensure the timely
                                                      Radio Frequency Identification tags contain
accountability, visibility, redistribution, and
                                                      the appropriate data and that metrics are
security of equipment leaving Iraq, DoD
                                                      developed to track compliance with the
activities bypassed the Supply Support
                                                      procedures.
Activities and shipped their equipment
directly to the Theater Redistribution Center
(TRC) at Camp Arifjan, Kuwait. For                    Management Comments and
example, during a 3-month period, the two             Our Response
Supply Support Activities shipped                     We revised recommendation 1 slightly in
81 containers to the TRC, while DoD                   response to management comments. The
activities shipped 272 containers directly to         U.S. Forces-Iraq and the U.S. Army Central
the TRC. This occurred because U.S.                   comments were responsive. Therefore, we
Forces-Iraq officials did not establish               do not require additional comments.
procedures to preclude Movement Control
Teams from authorizing DoD activities to

                                                  i
 Report No. D-2011-056 (Project No. D2010-D000JB-0219.000)           April 14, 2011


Recommendations Table

         Management                Recommendations                 No Additional
                                  Requiring Comment              Comments Required
 Commander, U.S. Forces-Iraq                                 1
 Commander, U.S. Army Central                                2




                                        ii
Table of Contents

Introduction                                                            1

     Objectives                                                        1
     Background                                                        1
     Review of Internal Controls                                       4

Finding. Supply Support Activities Not Always Used to Process Excess
Equipment from Iraq                                                     5

     SSA and CRSP Operations Effective                                  5
     DoD Activities Bypassed the SSA                                    7
     Lack of Procedures to Enforce SSA Policy                           8
     Bypassing SSAs Decreased Efficiency                                8
     USARCENT Personnel Did Not Complete Corrective Action              9
     Management Comments on the Finding and Our Response               10
     Recommendations, Management Comments, and Our Response            11

Appendix

     Scope and Methodology                                             13
     Prior Coverage                                                    15

Management Comments

     U.S. Forces-Iraq                                                  16
     U.S. Army Central                                                 18
Introduction
Objectives
Our overall audit objective was to determine whether DoD was effectively managing
operations at the Supply Support Activities (SSA) and Central Receiving and Shipping
Points (CRSP) in Iraq. Specifically, we evaluated the process for the disposition of
equipment1 leaving Iraq through the SSAs and the CRSPs, and whether that process
ensured timely accountability, visibility, and redistribution of the equipment to meet DoD
needs. We also determined whether adequate security procedures were in place to ensure
the intended destinations received equipment shipped from Iraq. This report is one in a
series of reports concerning the Iraq drawdown with respect to the transfer, reset, and
disposal of U.S. equipment. This report focuses on the roles of the SSAs and the CRSPs
in that process. DoD Inspector General Report No. D-2010-060, “Drawdown and Reset
of Equipment in Iraq-Operation Clean Sweep,” June 11, 2010, focused on Operation
Clean Sweep and the role of the Mobile Redistribution Teams in that operation. See the
appendix for a discussion of our scope and methodology.

During the audit, we coordinated with the Army Audit Agency (AAA) to prevent
redundancy in audit coverage. AAA personnel requested our assistance to follow-up on a
recommendation made in Army Audit Agency report No. A-2010-0022-ALL,
“Retrograde Operations Southwest Asia, Multi-Class Retrograde, Camp Arifjan,
Kuwait,” December 7, 2009. In that report, AAA personnel recommended that U.S.
Army Central (USARCENT) develop metrics to track compliance with Radio Frequency
Identification requirements for shipping containers leaving the USARCENT area of
responsibility.2 Therefore, we expanded our audit objective to determine whether
USARCENT had taken corrective action in response to that recommendation.

Background
We performed this audit in response to a request from the Commander, U.S. Central
Command, to focus oversight on asset accountability to ensure U.S.-funded assets are
properly accounted for and that there is a process for the proper transfer, reset, or disposal
of assets in conjunction with the responsible drawdown of U.S. Forces and equipment
from Iraq. According to the Security Agreement between the Governments of the
United States and Iraq, all U.S. Forces will withdraw from Iraqi territory no later than
December 31, 2011. By the end of August 2010, about 74,000 U.S. combat forces had
withdrawn from Iraq, reducing U.S. troop levels to about 50,000. In addition to the




1
  Equipment includes items needed to equip, maintain, operate, and support military activities. For
purposes of this report, equipment is synonymous with “supplies” and “materiel.”
2
  The USARCENT area of responsibility includes Iraq, Afghanistan, Kuwait, and 17 other countries in
Southwest Asia.

                                                   1
drawdown of personnel, DoD is drawing down and dispositioning its equipment located
in Iraq. According to U.S. Forces-Iraq (USF-I), about 1.2 million pieces of non-rolling
stock3 remained in Iraq as of December 2010.

Supply Support Activities
The SSAs’ primary responsibilities are to order supplies and process excess and
unserviceable property turned in by DoD activities. As of November 25, 2010, seven
SSAs were operating in Iraq. SSA personnel assist DoD activities by processing and
preparing excess equipment for shipment out of the Iraq theater.4 By doing so, SSAs
ensure the excess equipment is redistributed based on requirements set by DoD planners.
To accomplish these tasks, SSA personnel input excess equipment data into the
automated Standard Army Retail Supply System (SARSS), which provides redistribution
instructions directing SSA personnel where to ship the equipment. SSA personnel pack
and attach documentation on cargo to help identify contents to the receiving activity.
After the containers are packed, SSA personnel complete and submit a Transportation
Movement Request (TMR), which is the official document requesting a Movement
Control Team (MCT) to arrange transportation of cargo. At a minimum, the TMR
contains the shipping origination, destination, point of contact, cargo contents, and type
of transportation required.

Movement Control Teams
The primary responsibilities of MCTs are to provide DoD activities with the ability to
arrange transportation of cargo. As of November 25, 2010, seven MCTs were operating
in Iraq. MCTs expedite, coordinate, and monitor cargo throughout the transportation
system. MCTs use TMR information provided by DoD activities to issue Transportation
Movement Releases, which specify and authorize cargo movement and direct the use of
transportation assets through movement control channels. MCT personnel issue
Transportation Movement Releases after verifying shipping destinations, originations,
and points of contact. Additionally, MCTs are required to provide Radio Frequency
Identification (RFID) tags to DoD activities that do not have the capability to enter data
onto an RFID. The RFID tags are electronic equipment attached to cargo and contain
content-level data. The RFID tags synchronize with the Radio Frequency In-Transit
Visibility system that traces the identity, status, and location of cargo from origin to
destination via a worldwide infrastructure of hardware and software. Upon approval of a
TMR, DoD activities deliver their cargo with the attached RFID tag to a CRSP for
transportation.

Central Receiving and Shipping Point
CRSPs’ primary responsibilities are to provide a centralized supply distribution operation
to maximize vehicle loads and reduce the number of convoy logistic patrols moving in

3
  SSAs process non-rolling stock equipment, including organizational equipment, which is retained by DoD
activities during redeployment or redistributed through an SSA.
4
  Materiel Redistribution and other support teams under Operation Clean Sweep II are other USF-I
activities that support the processing and preparing of excess equipment for shipment out of Iraq. See
DoD OIG Report D2010-060 for the audit conducted on Operation Clean Sweep.

                                                   2
the area of operation. CRSP personnel are responsible for inventorying all cargo entering
and leaving the CRSP yard, verifying transportation documentation, escorting and staging
the cargo in the appropriate areas, and providing instructions to the DoD activities for
loading procedures. CRSP personnel are not responsible for container contents as they
rely on DoD activities to inventory and pack containers appropriately.

Logistics Operations Management
The 103rd Sustainment Command (Expeditionary), the higher headquarters for all
logistics operations in Iraq, coordinates, synchronizes, and executes the drawdown of
supplies and equipment. The 103rd Sustainment Command (Expeditionary) is responsible
for overseeing operations at the SSAs, MCTs, and CRSPs, including the redistribution of
all excess equipment not needed to support the residual force.

Policies and Procedures
Policies and procedures for SSAs, MCTs, and CRSPs are contained in Army and
USCENTCOM guidance. Army Regulation (AR) 710-2, “Supply Policy Below the
National Level,” March 28, 2008, prescribes policy and assigns responsibility for SSAs.
AR 710-2 states that DoD activities are required to turn in all excess property to an SSA
so that the SSA can establish accountability and redistribute excess equipment.

USF-I Fragmentary Order (FRAGO) 1695, “Operation Clean Sweep II,” July 30, 2010,
established a process to assist units with the identification, classification, and disposition
of excess material and equipment in support of the Iraq drawdown. The FRAGO states
that “Operation Clean Sweep II” will increase the ability of U.S. military units to identify
excess material and property, and retrograde equipment and supplies.

USCENTCOM “Radio Frequency Identification Letter of Instruction,” June 19, 2007,
(LOI) amplifies RFID tag requirements for USCENTCOM regulation 700-4, “Logistics
Automatic Identification Technology and ITV,” January 2006. The LOI describes
requirements for employing RFID technology to enhance in-transit visibility of forces
and materiel moving within USCENTCOM’s area of responsibility and for tracking
compliance metrics. According to the LOI, “all containers must have RFID tags written
at point of origin by all activities stuffing containers.” The LOI also requires the RFID
tags have content-level details describing the equipment in the containers. Content-level
details include two components: asset-level detail and content-level detail. Asset-level
details are the minimum data elements describing the physical characteristics of a single
asset, including National Stock Number5 (NSN), nomenclature, condition code, and
hazardous cargo descriptor codes. Content-level details are the minimum data elements
describing a single box or unpacked item, including the asset quantity, sender and
receiver identifier codes, and ship date. In the memorandum, “Radio Frequency
Identification (RFID) Policy,” February 20, 2004, the Acting Under Secretary of Defense
for Acquisition, Technology, and Logistics, stated that an RFID-enabled DoD supply


5
  A National Stock Number is a unique series of numbers used throughout the Federal supply system to
identify a supply item.

                                                   3
chain would reduce operating costs, allow DoD to refocus critical work force resources,
and provide a key enabler for the asset visibility support needed by warfighters.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provide reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses for USF-I. Specifically, USF-I personnel did not ensure proper redistribution
or visibility was established for all equipment shipped out of Iraq. We will provide a
copy of the final report to the senior official(s) responsible for internal controls in USF-I.




                                              4
Finding. Supply Support Activities Not
Always Used to Process Excess Equipment
From Iraq
Although the two SSAs and CRSPs we visited were effectively managing the disposition
process to ensure the timely accountability, visibility, redistribution, and security of
equipment leaving Iraq, DoD activities bypassed the SSAs and shipped their equipment
directly to the Theater Redistribution Center (TRC) at Camp Arifjan, Kuwait. For
example, during the same 3-month period, the 2 SSAs shipped 81 containers to the TRC,
while DoD activities shipped 272 containers directly to the TRC. This occurred because
USF-I did not establish procedures to preclude MCTs from authorizing DoD activities’
requests to ship equipment directly to the TRC. By bypassing the SSAs, DoD activities
delayed redistribution and reduced content visibility. Specifically, redistribution
requirements were not determined until the equipment arrived at the TRC, which
decreased efficiency and increased the time needed to identify and process excess
equipment. Without content visibility, personnel at the TRC were not aware of container
contents and could not adequately plan the resources needed to unpack and process the
equipment. Lack of content visibility also increased risk of injury from inappropriately
packed weapons and hazardous material. For example, TRC personnel provided
documentation identifying that during a period of about 60 days, DoD incurred work
stoppage at the TRC of about 2,670 hours at a cost of $85,000.

SSA and CRSP Operations Effective
Camp Liberty and Joint Base Balad (JBB) SSA personnel effectively received, processed,
and redistributed excess equipment in accordance with policies and procedures and
ensured the timely accountability, visibility, and redistribution of excess equipment. In
addition, we determined CRSP personnel conducted effective receiving, processing,
staging, and shipping procedures in accordance with established policies.

The SSAs we visited had policies and
procedures in place for the timely accountability, … from April through June
visibility, and redistribution of excess           2010, Camp Liberty and JBB
equipment. SSA personnel established               [Joint Base Balad] SSAs
accountability, visibility, and redistribution in  redistributed 63,000 items of
the supply system by processing excess             excess equipment.
equipment through SARSS. According to
documentation provided by 103rd Sustainment Command (Expeditionary), from April
through June 2010, Camp Liberty and JBB SSAs redistributed 63,000 items of excess
equipment.




                                           5
At the SSAs visited, we observed DoD activities turning in excess equipment with
supporting documentation and SSA personnel verifying the accuracy of the
documentation. Specifically, SSA personnel required DoD activities to:

       unpack and layout items on a table, grouped by like items,
       place supporting documentation with each group of items (Figure 1), and
       provide a Federal Logistic Data printout for each group of items.

SSA personnel also requested DoD                      Figure 1. DoD Activities Turning in Excess
activities provide additional documentation           Equipment With Supporting Documentation
for sensitive equipment (ammunition,
security equipment, and hazardous
material). In addition, SSA personnel
validated the accuracy of the NSN,
nomenclature, and quantity of the
equipment on the turn-in documentation.

Upon validating data on the supporting
documentation, we observed SSA
personnel enter the data into SARSS to
establish accountability for the excess               Source: DoD IG Audit Team, June 14, 2010
equipment. SSA personnel received
redistribution instructions6 in the form of           Figure 2. SSA Personnel Verify Information
Materiel Release Orders (MRO) within                  and Attach MRO Documentation to Excess
minutes of entering the equipment data                Equipment
into SARSS. Redistribution instructions
included stocking the equipment at the
SSA for reissue, shipping the equipment to
the TRC for use elsewhere, or shipping to
the Defense Reutilization Market Office
for disposal. SSA personnel verified that
the equipment NSN and quantities matched
those listed on the MRO and attached
copies of the MRO to the equipment
(Figure 2).                                           Source: DoD IG Audit Team, June 14, 2010

To establish content visibility, JBB SSA personnel wrote equipment data onto the RFID
tags from SARSS, while Camp Liberty SSA personnel placed copies of the MROs inside
the container doors.




6
 Redistribution instructions provided by SARSS are based on programmed parameters established by
Army Materiel Command.

                                                  6
When SSA personnel completed the packing process, they attached an RFID tag and a
seal to the containers. SSA personnel then arranged for the movement of containers to
the CRSP yard for shipment.

CRSP personnel received, documented, staged, and transferred cargo based on TMRs
processed by the MCT. At the sites we visited, CRSP personnel followed established
policies and procedures for excess equipment redistribution. Personnel verified
transportation documentation for cargo entering and leaving the CRSP yard. In addition,
CRSP personnel entered cargo information into the CRSP Tracker with data available
from the TMR, such as the TMR number, RFID tag number, unit’s name, date and time
cargo arrived, origin and destination, type of equipment, and any information that
identified a particular piece of equipment. Each container arriving at the CRSP from the
SSAs had an RFID tag and a seal attached.

CRSP personnel escorted, staged in the appropriate areas, and ensured proper loading
procedures for cargo. CRSP personnel then identified all TMRs for movement and
attached load/cargo/equipment listings to the TMRs. Once a convoy was loaded for
transport, the CRSP personnel immediately logged the loaded cargo in the CRSP Tracker.

The sites visited had physical security measures that included continuous fencing topped
with concertina wire and gated entry points with access pass requirements. We tested the
pass process at the Camp Liberty CRSP by conducting an impromptu site visit. We noted
that the process for the unannounced visit was the same as the process during our
announced visits. At the JBB CRSP, we observed CRSP personnel load flatbed trucks
with containers. We noted that each flatbed truck held two containers and that the
containers were loaded with the container doors facing each other. This made it
impossible to open the containers until the containers were unloaded from the flatbed
trucks. According to documentation provided by 103rd Sustainment Command
(Expeditionary), from April through June 2010, Camp Liberty and JBB CRSPs shipped
2,023 containers to the TRC in Camp Arfijan Kuwait.

DoD Activities Bypassed the SSA
DoD activities did not always process their excess equipment through an SSA to ensure
accurate redistribution instructions, proper processing, and identification of equipment
before shipment from Iraq. According to Army Regulation (AR) 710-2, “Supply Policy
Below the National Level,” March 28, 2008, activities are required to turn in all excess
equipment, serviceable or unserviceable, to the SSA. DoD activities are to provide the
proper data, including the NSN, nomenclature,
and serviceability for each item. Activities are         …DoD activities used
also to provide additional documentation for             MCTs to bypass SSAs and
sensitive equipment (ammunition, security                independently ship 272
equipment, and hazardous material) to help ensure        containers to the TRC.
the safety of the receiving personnel. During a
period of about 90 days, the SSAs we visited shipped 81 containers of excess equipment
to the TRC, while DoD activities used MCTs to bypass SSAs and independently shipped
272 containers to TRC.

                                           7
Lack of Procedures to Enforce SSA Policy
Although AR 710-2 requires DoD activities to process excess equipment through an
SSA, USF-I did not establish procedures to preclude MCTs from authorizing
DoD activities’ requests to ship equipment directly to the TRC. Specifically, DoD
activities submitted TMRs to the MCTs requesting authorization to ship cargo to the
TRC. MCT personnel authorized the TMRs if the shipping destinations, originations,
and points of contact were valid. MCT procedures did not require its personnel to verify
that the DoD activities were authorized to ship cargo to the TRC. This lack of procedures
allowed DoD activities to bypass the SSAs, circumventing AR 710-2 requirements for
processing excess equipment.

USF-I should develop and implement procedures to prevent unauthorized DoD activities
from shipping cargo directly to the TRC. Those procedures should ensure only SSAs,
Operation Clean Sweep II Teams, or other USF-I authorized activities ship excess
equipment to the TRC. Implementation of these procedures should minimize the time
and personnel needed to process containers, reduce injuries to personnel, and enhance the
redistribution of equipment to receiving activities.

Bypassing SSAs Decreased Efficiency
DoD activities that bypassed SSAs decreased the efficiency of the excess equipment
disposition process. When DoD activities bypassed the SSAs, redistribution
requirements were not determined and content visibility was not always established.
Specifically, redistribution requirements were not determined until the equipment arrived
at the TRC, which increased the time needed to identify and process excess equipment.
In addition, without content visibility, personnel at the TRC were not aware of container
contents and could not adequately plan the resources needed to unpack and process the
equipment. Lack of content visibility also increased risk of injury from inappropriately
packed weapons and hazardous material.

Without controls in place to ensure DoD activities used the SSAs, the TRC had to
increase the time and effort needed to establish accountability and determine
redistribution requirements. The process for each unidentified piece of equipment may
take an additional 28 to 52 hours. This delayed the redistribution of serviceable
equipment that could be used by other DoD activities.

Cargo shipped without required content data markings reduces visibility, which increases
the personnel required and processing time required for excess equipment, and increases
the risk of injury to personnel at the receiving activity. During a period of about 60
days,7 the TRC encountered five dangerous incidents that caused work stoppage because




7
  We requested information from the 1st Transportation Sustainment Command (TSC), Arifjan, Kuwait, for
the entire FY 2010. However, 1st TSC personnel stated they did not maintain data prior to April 2010,
when they assumed command of operations.

                                                  8
 of a lack of content visibility. The work stoppage resulted in a loss of about 2,670 hours
at a cost of $85,000. The following table lists the incident, incident description, and the
                                  response to the incident. TRC personnel stated that if
  Work stoppage cost              DoD activities had provided the required content data,
  DoD approximately               TRC personnel would have been aware of weapons and
  2,670 hours...at a cost         hazardous material inside the containers and ensured that
  of about $85,000.               the proper response team was present when opening the
                                  container. TRC personnel stated that using content-level
data would enhance the performance of the TRC and potentially prevent injuries.

       Dangerous Incidents at the TRC From July 2010 Through August 2010
         Date            Incident      Incident Description       External Responders
  July 18, 2010          Weapon           A grenade round           Explosive Ordnance
                                         lodged in launcher         Detachment (EOD)
                                                                           team

  July 19, 2010          Hazmat       Calcium hypo-chloride       Area Support Group-
                                       yielding chlorine gas       Kuwait (ASG-KU)
                                      injured four personnel       Hazardous Material
                                                                  (HAZMAT) team and
                                                                    Fire department


  August 1, 2010         Weapon          Dummy landmine            No external response

  August 18, 2010        Hazmat       Unknown fluid leaking        ASG-KU HAZMAT
                                         from container,                team
                                      determined to be paint
                                             thinner
  August 23, 2010        Weapon           An unexploded                 EOD team
                                        explosive ordnance
                                      flash bang grenade, but
                                      grenade was expended

USARCENT Personnel Did Not Complete Corrective
Action
During the audit, we coordinated with AAA to prevent redundancy in audit coverage.
AAA personnel requested our assistance to follow-up on a recommendation made in
Report No. A-2010-0022-ALL, “Retrograde Operations Southwest Asia, Multi-Class
Retrograde, Camp Arifjan, Kuwait,” December 7, 2009. In that report, AAA
recommended that USARCENT develop metrics to track compliance with Radio
Frequency Identification Visibility requirements for shipping containers leaving the



                                             9
USARCENT area of responsibility. Therefore, we expanded our audit objective to
determine whether USARCENT had taken corrective action in response to that
recommendation.

As of December 2010, USARCENT had not taken corrective action in response to the
AAA recommendation. Specifically, USARCENT had not established metrics for
tracking compliance with RFID technology. However, we determined that
USCENTCOM “Radio Frequency Identification Letter of Instruction,” June 19, 2007,
had established such metrics. We discussed the Letter of Instruction with AAA officials,
who agreed that while there was a policy requiring the development of metrics to track
compliance, USARCENT had not implemented the requirements. Therefore, because we
identified that containers were arriving at the TRC without content-level data, we are
issuing a recommendation for USARCENT to develop implementing procedures for the
USCENTCOM Letter of Instruction.

Management Comments on the Finding and Our
Response
Deputy, U.S. Forces-Iraq, Joint Logistics Directorate Comments
The Deputy, USF-I Joint Logistics Directorate, disagreed with our statement concerning
the need for USF-I procedures to preclude MCTs from authorizing DoD Activities’
requests to ship equipment directly to the TRC. The Deputy stated that it is not the
MCT’s function to monitor compliance with turn in requirements but to validate
transportation requirements and coordinate transportation support.

The Deputy, USF-I also requested that we change the term “Movement Release Orders”
to “Materiel Release Orders.”

Our Response
We agree that AR 710-2 does not explicitly state that the MCTs should ensure
compliance with turn in requirements. However, the MCTs are required to validate
transportation requirements, which include verifying the shipping destination.
Establishing procedures to require the MCTs to verify that the DoD activity is authorized
to ship directly to the TRC is a reasonable requirement at the most effective point in the
transportation process. Therefore, we did not revise the finding based on the Deputy,
USF-I, Joint Logistics Directorate’s comments concerning the MCTs.

We agree with the Deputy’s comment concerning use of the terms Movement Release
Orders and Materiel Release Orders and revised the finding accordingly.




                                            10
Recommendations, Management Comments, and Our
Response
Revised Recommendation
As a result of management comments, we slightly revised draft recommendation 1.

1. We recommend the Commander, U.S. Forces-Iraq, develop procedures for the
Expeditionary Sustainment Command and its subordinate commands that prevent
unauthorized DoD activities from bypassing Supply Support Activities and ensure
those activities turn in excess equipment to the Supply Support Activity or utilize
the Operation Clean Sweep II Teams for processing.

Management Comments
The Deputy, U.S. Forces-Iraq, Joint Logistics Directorate, partially agreed and suggested
that the recommendation be revised to state “We recommend that the Commander,
United States Forces-Iraq provide policy and guidance to the Expeditionary Sustainment
Command and all subordinate commands on what entities are allowed to ship directly to
the Theater Redistribution Center (TRC) in Kuwait, bypassing the Supply Support
Activity.” The Deputy added that although that requirement is not as efficient, it would
ensure that equipment is accounted for and remains in Government control. However,
the Deputy also stated that U.S. Forces-Iraq, in coordination with the Expeditionary
Sustainment Command, will establish procedures to address DoD activities that are
authorized/unauthorized to ship directly to the Theater Redistribution Center. The
Expeditionary Sustainment Command will coordinate the procedures with subordinate
units.

Our Response
The Deputy, U.S. Forces-Iraq, Joint Logistics Directorate, comments are responsive and
proposed actions will address our concerns, therefore, no additional comments are
required.

2. We recommend the Commander, U.S. Army Central, develop implementing
procedures for the U.S. Central Command “Radio Frequency Identification Letter
of Instruction,” June 19, 2007, requiring that all Radio Frequency Identification
tags contain the appropriate content-level data and develop metrics to track
compliance.

Management Comments
The Commander, U.S. Army Central, agreed stating that U.S. Army Central will take
action to address Radio Frequency Identification tag requirements for shipments
throughout Theater and establish a metric to track compliance in accordance with U.S.
Central Command Letter of Instruction. Although the estimated completion date for


                                           11
those actions was originally April 1, 2011, a U.S. Army Central official estimated that the
procedures would be completed by April 30, 2011.

Our Response
The Commander, U.S. Army Central, comments are responsive and no additional
comments are required.

Management Comments
Although not required to comment on this recommendation, the Deputy, U.S.
Forces-Iraq, Joint Logistics Directorate stated that U.S. Forces-Iraq would work closely
with the U.S. Army Central Logistics Directorate as it continues to refine the Radio
Frequency Identification metrics. The Deputy also stated that U.S. Forces-Iraq would
continue to ensure that all measures are taken to maximize the use and accuracy of Radio
Frequency Identification.




                                            12
Appendix. Scope and Methodology
We conducted this performance audit from May 2010 through February 2011 in
accordance with generally accepted Government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We coordinated with officials from U.S. Central Command, U.S. Army Materiel
Command, U.S. Forces-Iraq, U.S. Army Central, Army Sustainment Command, and
1st Sustainment Command (Theater). Additionally, we met with 13th Combat
Sustainment Support Battalion, 103rd Sustainment Command (Expeditionary),
3rd Sustainment Brigade, 1st Sustainment Brigade, and 13th Sustainment Command
(Expeditionary). We coordinated with personnel from the Government Accountability
Office and the Army Audit Agency to avoid duplicative reporting and to minimize the
impact on the DoD agencies’ missions.

We evaluated the disposition process at two of the five largest SSAs in Iraq. The Joint
Base Balad and the Victory Base Complex SSAs are two of the top five SSAs. As part of
the evaluation, we also visited seven organizations associated with the disposition process
(see the following table for a listing of locations and dates visited).

                                  Listing of Site Visits
     Site Location                     Organization                      Date Visited
Joint Base Balad                  Supply Support Activity                June 14, 2010
                                  Joint Distribution Center              June 15, 2010
                            Central Receiving and Shipping Point         June 16, 2010
                                  Movement Control Team                  June 16, 2010
Victory Base Complex               Supply Support Activity               June 17, 2010
                            Central Receiving and Shipping Point         June 19, 2010
                                  Movement Control Team                  June 19, 2010

We obtained and reviewed policies and procedures for the accountability, visibility, and
redistribution of excess equipment. We also reviewed DoD policies and regulations,
Army regulations, Army pamphlets, operation orders, Field manuals, and standard
operating procedures.

For example, we reviewed the following:
        AR 710-2, “Supply Policy Below the National Level,”
        Department of the Army Pamphlet 710-2-2, “Supply Support Activity Supply
          System (Manual Procedures),”

                                            13
          AR 735-5, “Policies and Procedures for Property Accountability,”
          AR 700-80, “Army In-Transit Visibility,”
          DoD 4160.21-M-1, “DoD Demilitarization Manual,”
          DoD Acquisition, Technology, & Logistics Radio Frequency Identification
           (RFID) Policy,
          Central Receiving and Shipping Points (CRSP) Handbook No. 07-33,
          Movement Control Field Manual 4-01.30 (FM 55-10), 373rd External
           Standing Operating Procedures, “Multi-Class Supply Support Activity,”
          716th Quartermaster Company’s Supply Support Activity External Standard
           Operating Procedures, and
          169th Seaport Operations Company, Central Receiving and Shipping Point
           Standard Operating Procedures.

During our visits, we observed personnel perform their responsibilities for the excess
equipment disposition process. We conducted interviews with personnel from the SSAs,
MCTs, CRSPs, and Joint Distribution Center to get an understanding of their roles,
responsibilities, and procedures, and compared them to the applicable guidance listed
above. We also requested and reviewed the following forms and documents that were
used for accountability and redistribution of excess equipment:

          DA Form 2765-1, “Request for Issue or Turn-in,”
          DD Form 1348, “Issue Release/Receipt Document,”
          Radio Frequency Identification Tag request form, and
          Transportation Movement Request form.

To determine containers shipped to the TRC from JBB and Camp Liberty SSAs and other
DoD activities, we obtained shipping data from Trans Log Web, RF-ITV, and Integrated
Booking System-Container Management Module (IBS-CMM) from April 2010 through
June 2010 for the JBB and Camp Liberty CRSP. We analyzed the destination and
originator to determine the entity that shipped cargo from the JBB and Camp Liberty
CRSP to the TRC.

Use of Computer-Processed Data
The reliability of the systems used for the disposition of excess equipment was not the
objective of our audit. However, as part of our audit, we relied on data from the Trans
Log Web, RF-ITV, and SARSS systems to verify the process and procedures used for the
disposition of excess equipment at the sites we visited. We reviewed the following:
          screen prints of RFID tag numbers from the RF-ITV to determine the content
           level data, and
          TMRs from the Trans Log Web to determine the shipping origination and
           destinations for TMRs.
We considered data from Trans Log Web and RF-ITV to be sufficiently reliable based on
our testing procedures. Specifically, we obtained shipping information from the SSAs,
MCTs, and CRSPs we visited and compared this information to the data in the RF-ITV

                                          14
and Trans Log Web systems. The consistency of the information obtained and the
data from the systems provided assurance that the use of the data would not lead to
incorrect conclusions or findings.

We did not test the reliability of data from SARSS as we did not rely on the accuracy of
the data elements in the system for the basis of our conclusions or findings. Our
conclusions and finding were based on the determination that SARSS provides Material
Release Orders and not the accuracy of those Material Release Orders.

Prior Coverage
During the last 5 years, the Government Accountability Office (GAO), Department of
Defense Office of Inspector General (DoD OIG), and the Army Audit Agency have
issued eight reports discussing topics related to accountability and visibility of DoD
equipment in Iraq. Unrestricted GAO reports can be accessed over the Internet at
http://www.gao.gov/. Unrestricted DoD IG reports can be accessed at
http://www.dodig.osd.mil/audit/reports. Unrestricted Army reports can be accessed from
.mil and gao.gov domains over the Internet at https://www.aaa.army.mil/.

GAO
GAO-08-930, “Operation Iraqi Freedom Actions Needed to Enhance DoD Planning for
Reposturing of U.S. Forces from Iraq,” September 2008

DoD OIG
DoD IG Report D-2010-60, “Drawdown and Reset of Equipment in Iraq - Operation
Clean Sweep,” June 11, 2010

DoD IG Report D-2008-135, “Requiring Radio Frequency Identification in Contracts for
Supplies,” September 29, 2008

DoD IG Report D-2008-131, “Security of Radio Frequency Identification Information,”
September 19, 2008

Army
A-2010-0022-ALL, “Retrograde Operations Southwest Asia: Multi-Class Retrograde
Camp Arifjan, Kuwait,” December 7, 2009

A-2009-0080-ALL, “Retrograde Operations in Southwest Asia Multi-class
Retrograde - Iraq Camp Victory, Iraq,” March 31, 2009

A-2009-0085-ALL, “Retrograde Operations in Southwest Asia, Class VII Theater
Provided Equipment Camp Victory, Iraq,” March 26, 2009

A-2008-0041-ALL, “Asset Visibility in Support of Operation Iraqi Freedom and
Operation Enduring Freedom – Summary Report,” January 30, 2008

                                           15
U.S. Forces-Iraq Comments

                            Final
                            Report
                            Reference




                            Revised
                            Recommendation
                            (Page 11)




                            Revised




                            Revised
                            Recommendation
                            (Page 11)




                    16
17
U.S. Army Central Comments




                   18
19
